APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Third Circuit, Druding v. Care
Alternatives, No. 18-3298 (Mar. 4, 2020) .... App-1
Appendix B
Order, United States Court of Appeals for
the Third Circuit, Druding v. Care
Alternatives, No. 18-3298 (May 6, 2020)... App-24
Appendix C
Opinion, United States District Court for
the District of New Jersey, Druding v.
Care Alternatives, Inc., No. 08-2126
(Sept. 26, 2018) .......................................... App-26
Appendix D
Relevant Statutory and Regulatory
Provisions................................................... App-66
31 U.S.C. § 3729(a)(1)(A)-(B) ............. App-66
42 U.S.C. § 1395f(a)(7)(A) (2005) ....... App-66
42 C.F.R. § 418.22(b) (2006) ............... App-67

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 18-3298
________________
UNITED STATES OF AMERICA AND STATE OF NEW
JERSEY EX REL. VICTORIA DRUDING; BARBARA BAIN;
LINDA COLEMAN; RONNI O’BRIEN,
v.

Appellants,

CARE ALTERNATIVES,
Appellee.
________________
Argued: Sept. 10, 2019
Filed: Mar. 4, 2020
________________
Before: HARDIMAN, GREENAWAY, JR. and BIBAS,
Circuit Judges.
________________
OPINION
________________
GREENAWAY, JR., Circuit Judge.
This case requires us to consider whether and
when clinical judgments can be considered “false” in
the context of the False Claims Act (“FCA”), 31 U.S.C.
§§ 3729-3733 (2009). It is a matter of first impression
in this Court.

App-2
Victoria Druding, Linda Coleman, Barbara Bain,
and Ronni O’Brien (collectively, “Appellants”), each of
whom is a former employee of Appellee Care
Alternatives, brought this FCA action alleging that
Care Alternatives admitted patients who were
ineligible for hospice care and directed its employees
to improperly alter those patients’ Medicare
certifications to reflect eligibility. In support of their
position, Appellants retained an expert. The expert
opined in his report that, based on the records of the
forty-seven patients he examined, the patients were
inappropriately certified for hospice care thirty-five
percent of the time.
Care Alternatives’ expert disagreed and testified
that a reasonable physician would have found all of
the patients reviewed by Appellants’ expert hospiceeligible on each occasion that Appellants’ expert had
deemed certification inappropriate. In considering
Care Alternatives’ summary judgment motion, the
District Court determined that a mere difference of
opinion between experts regarding the accuracy of the
prognosis was insufficient to create a triable dispute
of fact as to the element of falsity. In fact, the District
Court required Appellants to instead provide evidence
of an objective falsehood. Upon finding Appellants had
not adduced such evidence, the District Court granted
summary judgment in favor of Care Alternatives.
Today, we reject the District Court’s objectivefalsehood requirement for FCA falsity. Since we find
that Appellants’ expert testimony created a genuine
dispute of material fact as to falsity, we will vacate the
judgment and remand to the District Court for further
proceedings consistent with this opinion.

App-3
I.

BACKGROUND

Care Alternatives provides hospice care to
patients throughout New Jersey. It employs a team of
clinicians known as “interdisciplinary teams,”
(“IDTs”) consisting of registered nurses, chaplains,
social workers, home health aides, and therapists
working alongside independent physicians who serve
as hospice medical directors. The IDTs meet twice a
month to review patient care plans and to identify any
particular needs as well as discuss patients who are
up for recertification of their need for hospice care.
Appellants are former employees of Care
Alternatives, many of whom were clinicians that
participated in IDTs. They brought this action under
the FCA alleging, among other things, that Care
Alternatives admitted ineligible patients and directed
its employees to alter Medicare certifications to
increase the number of eligible patients.
Before reaching the essential question of whether
expert testimony may suffice to generate a genuine
dispute as to a Medicare claim’s falsity, we will review
the requirements that hospice care providers must
meet to qualify for Medicare reimbursement and the
circumstances leading to this appeal.
A. Medicare Hospice Benefit
In 1983, Congress established the Medicare
Hospice Benefit (“MHB”). See 48 Fed. Reg. 56,008
(Dec. 16, 1983) (codified at 42 C.F.R. pts. 400, 405, 408,
409, 418, 420, 421, 489). This regulation expanded the
Health and Human Services Secretary’s statutory
authority to reimburse contractors that provide
hospice care to eligible persons. 42 U.S.C. §§ 1395h
(2006), 1395kk-1 (2015). Hospice care is considered

App-4
palliative care, meaning it is “patient and familycentered care that optimizes quality of life by
anticipating, preventing, and treating suffering.” 42
C.F.R. § 418.3 (2019). It aims to “mak[e a terminally
ill] individual as physically and emotionally
comfortable as possible.” 48 Fed. Reg. at 56,008. A
patient who has been certified as eligible for hospice
care and elects to receive the MHB waives the right to
Medicare payment for “curative” care that is designed
to help improve the individual’s condition. See 42
U.S.C. § 1395d(d)(2)(A) (2005); 42 C.F.R. § 418.24(e)
(2019); 72 Fed. Reg. 50,452, 50,452 (Aug. 22, 2014).
The Medicare provisions that set forth the
conditions for payment of the MHB require that an
individual be certified within a ninety-day period by
one or more physicians as terminally ill. 42 U.S.C.
§ 1395f(a)(7)(A)(i). The patient must also be recertified
in a similar manner for each additional sixty- or
ninety-day period during which he or she remains in
hospice care. 1 Id. § 1395f(a)(7)(A)(ii). An individual is
1

In relevant part, the statute states that:

payment for services furnished an individual may be made . . .
only if . . . in the case of hospice care provided an individual—
(A)(i) in the first 90-day period—
(I) the individual’s attending physician . . . , and
(II) the medical director . . . of the hospice care program
providing (or arranging for) the care, each certify in writing
at the beginning of the period, that the individual is
terminally ill . . . based on the physician’s or medical
director’s clinical judgment regarding the normal course of
the individual’s illness, and
(ii) in a subsequent 90- or 60-day period, the medical director
or physician described in clause (i)(II) recertifies at the

App-5
considered “terminally ill” when the individual has a
medical prognosis that the individual’s life expectancy
is six months or less, if the illness runs its normal
course. Id. § 1395x(dd)(3)(A) (2018); 42 C.F.R. § 418.3.
Regulations promulgated by the Secretary add
another requirement. See 42 C.F.R. § 418.20. The
regulations provide that, “[i]n order to be eligible to
elect hospice care under Medicare, an individual must
be . . . (b) Certified as being terminally ill in
accordance with § 418.22.” Id. Section 418.22, in turn,
imposes certain obligations on hospices regarding the
timing, content, and source of a certification, in
addition to a maintenance-of-records requirement.
Among these is the requirement that
[c]linical
information
and
other
documentation that support the medical
prognosis must accompany the certification
and must be filed in the medical record with
the written certification as set forth in
paragraph (d)(2) of this section. Initially, the
clinical information may be provided
verbally, and must be documented in the
medical record and included as part of the
hospice’s eligibility assessment.
§ 418.22(b)(2) (2011).
Therefore, in order for a patient to be eligible to
receive the MHB and for a hospice provider to be
entitled to bill for such benefits, an individual’s
beginning of the period that the individual is terminally ill
based on such clinical judgment . . .
§ 1395f(a)(7)(A); see also § 1395f(a)(7)(B)-(E) (providing the
other statutory prerequisites).

App-6
certification of terminal illness must be signed by at
least one physician, and be accompanied by “[c]linical
information and other documentation that support the
medical prognosis” of terminal illness in the medical
record. Id. Indeed, while the Center for Medicare &
Medicaid Services, the agency responsible for
administering health benefits, has recognized that
“making a prognosis is not an exact science,” it has
explained that this inexactitude “does not negate the
fact that there must be a clinical basis for a
certification[:] [a] hospice is required to make certain
that the physician’s clinical judgment can be
supported by clinical information and other
documentation that provide a basis for the
certification of 6 months or less if the illness runs its
normal course.” 79 Fed. Reg. at 50,470 (emphasis
added); see also 70 Fed. Reg. 70,532, 70,534-35 (Nov.
22, 2005) (“A hospice needs to be certain that the
physician’s clinical judgment can be supported by
clinical information and other documentation that
provide a basis for the certification of 6 months or less
if the illness runs its normal course. A signed
certification, absent a medically sound basis that
supports the clinical judgment, is not sufficient for
application of the hospice benefit under Medicare.”).
B. Factual and Procedural Background
Appellants brought this suit under the qui tam
provision of the FCA, which encourages actions by
private individuals, called relators, who are entitled to
a portion of the amount recovered, subject to certain
limitations. See 31 U.S.C. § 3730(b), (d). Pursuant to
the qui tam provision, Appellants filed their complaint
under seal and provided the Government with the

App-7
information upon which they intended to rely so that
the Government could make an informed decision as
to whether it should intervene and take over the case.
Id. § 3730(b)(2). Appellants alleged that Care
Alternatives submitted false hospice-reimbursement
claims to Medicare and Medicaid between 2006 and
2007, in violation of the FCA, which finds liable any
person who knowingly submits to the United States a
false claim for payment or approval. 31 U.S.C.
§§ 3729(a)(1)(A), 3730(b)(1).
Seven years after the complaint was filed, the
Government notified the District Court of its decision
not to intervene in this action. Appellants opted to
proceed independently and served the First Amended
Qui Tam Complaint upon Care Alternatives.
During discovery, the parties produced extensive
evidence addressing whether Care Alternatives
admitted ineligible patients. This included dueling
expert opinions. Appellants’ expert, Dr. Jayes,
prepared a report as to whether patient certifications
were accompanied by supporting documentation. He
examined the records of forty-seven patients and
opined that the documents did not support a
certification of need for hospice in thirty-five percent
of these patients’ hospice certification periods. In his
view, for those periods, any reasonable physician
would have reached the conclusion he reached. He also
found that the medical records were incomplete for at
least three patients.
Care Alternatives’ expert, Dr. Hughes, disagreed.
For each certification that Dr. Jayes reviewed, Dr.
Hughes opined that a physician could have reasonably

App-8
determined that the prognosis for each patient was six
months or less.
Care Alternatives moved for summary judgment
arguing that Appellants could not make out the four
prima facie elements of a claim under the FCA: falsity,
causation, knowledge, and materiality. 2 See United
States ex rel. Petratos v. Genentech Inc., 855 F.3d 481,
487 (3d Cir. 2017). Most relevant to this appeal were
Care Alternative’s arguments that Appellants had not
produced sufficient evidence of falsity. The
Government submitted a statement of interest urging
the District Court to reject the argument that the FCA
requires evidence of an “objective falsehood.”
The District Court granted summary judgment to
Care Alternatives based solely on failure to show
falsity. Relying on two district court decisions from
Alabama and Texas, it rejected the Government’s
assertions and held that a “mere difference of opinion
between physicians, without more, is not enough to
show falsity.” Druding v. Care Alternatives, Inc., 346
F. Supp. 3d 669, 685 (D.N.J. 2018) (emphasis in
original) (internal citation omitted). In doing so, it
relied on the premise that medical opinions are
subjective and cannot be false. Id. (quoting United
States ex rel. Riley v. St. Luke’s Episcopal Hosp., 355
Care Alternatives had also moved to dismiss the amended
complaint for failure to comply with the statutory requirements
of 31 U.S.C. § 3730(b)(2), which, among other things, requires a
relator to submit a “written disclosure of substantially all
material evidence and information the person possesses” in order
for the Government to decide whether it will intervene in an
action or move to dismiss the complaint. 31 U.S.C. § 3730(b)(2),
(c)(2)(A). The District Court denied the motion. Druding v. Care
Alternatives, Inc., 346 F. Supp. 3d 669, 683-84 (D.N.J. 2018).
2

App-9
F.3d 370, 376 (5th Cir. 2004) (finding that “scientific
judgments about which reasonable minds may differ
cannot be ‘false’” (internal citation omitted))).
Regarding the element of falsity, the District
Court adopted a standard not previously embraced or
established by this Court, which required Appellants
to show evidence of “an objective falsehood,” that the
physician’s prognosis of terminal illness was incorrect,
in order to prevail on the element of falsity. Id.
Appellants appealed, and the Government
submitted an amicus brief advancing substantially
the same argument as it had before the District Court.
II. JURISDICTION & STANDARD OF REVIEW
The District Court had jurisdiction pursuant to 28
U.S.C. § 1331 and 31 U.S.C. § 3732, and we have
jurisdiction pursuant to 28 U.S.C. § 1291. “Our review
of a district court’s decision at summary judgment is
plenary,” so, viewing “all facts in the light most
favorable to the non-moving party and draw[ing] all
inferences in that party’s favor,” “[w]e determine
whether the moving party has established that there
is no genuine dispute of material fact . . . .” Forrest v.
Parry, 930 F.3d 93, 105 (3d Cir. 2019) (citations
omitted).
III. DISCUSSION
The central question on appeal is whether a
hospice-care provider’s claim for reimbursement can
be considered “false” under the FCA on the basis of
medical-expert
testimony
that
opines
that
accompanying patient certifications did not support
patients’ prognoses of terminal illness. The answer is
a straightforward yes. In coming to this conclusion, we

App-10
decline to adopt the District Court’s “objective” falsity
standard, as the test is inconsistent with the statute
and contrary to this Court’s interpretations of what is
required for legal falsity. The District Court also erred
in its determination that clinical judgments cannot be
“false” for the purposes of FCA liability. In light of this
analysis, we find Appellants’ medical testimony
creates a genuine dispute of material fact as to the
element of falsity.
A.
In analyzing the statute’s text, we find the
premise of the District Court’s holding—that a “mere
difference of opinion” is insufficient to show FCA
falsity—is at odds with the meaning of “false” under
the statute. Druding, 346 F. Supp. 3d at 685. We also
conclude that the District Court’s “objective” falsity
standard improperly conflates the elements of falsity
and scienter, inconsistent with the application of the
FCA.
As with any statutory interpretation question, our
analysis begins with the text. United Health Servs.,
Inc. v. United States ex rel. Escobar, 136 S. Ct. 1989,
1999 (2016). The FCA provides that any person who
“knowingly presents, or causes to be presented, a false
or fraudulent claim for payment or approval” is liable
to the United States for a civil penalty between $5,000
and $10,000 as well as treble damages. 31 U.S.C.
§ 3729(a)(1)(A) (emphasis added). It also imposes
liability on any person who “knowingly makes, uses,
or causes to be made or used, a false record or
statement material to a false or fraudulent claim.” Id.
§ 3729(a)(1)(B) (emphasis added).

App-11
Since Congress did not define what makes a claim
“false” or “fraudulent” under the FCA, the Supreme
Court has looked to common law to fill the definitional
gap. Escobar, 136 S. Ct. at 1999-2000 (“[A]bsent other
indication, Congress intends to incorporate the wellsettled meaning of the common-law terms it uses.”
(citation omitted)). Under the common law, an opinion
can be considered “false” for purposes of liability. See
Omnicare, Inc. v. Laborers Dist. Council Constr.
Indus. Pension Fund, 575 U.S. 175, 183-86 (2015)
(finding that an opinion may be a “false statement” in
determining liability under the securities laws);
Herskowitz v. Nutri/Sys., Inc., 857 F.2d 179, 184 (3d
Cir. 1988) (“An opinion or projection . . . will be
deemed untrue for purposes of the federal securities
laws if it is issued without reasonable genuine belief
or if it has no basis.”); see also Restatement (Second)
of Torts §§ 525 cmt. c, 539 cmt. a (1977) (instructing
that an opinion may be false when the speaker makes
an express statement contrary to the opinion he or she
actually holds). Since there are circumstances in
which an opinion may be considered “false” under
common law, we find that the District Court’s
premise—an opinion is subjective and a difference of
opinion is not enough to show falsity—is inconsistent
with the meaning of “false” under the FCA.
Moreover, the District Court’s “objective” falsity
standard conflates the elements of scienter and falsity.
Although the common law cases involving false
opinions are often accompanied by a finding related to
scienter, the plain language of the FCA denotes
scienter as an element independent of falsity. 31
U.S.C.
§ 3729(a)(1)(A)
(requiring
“knowledge”
separate from a “false or fraudulent claim”); see

App-12
Petratos, 855 F.3d at 487 (stating an FCA violation has
four elements: falsity, causation, knowledge,
materiality). Combining the two elements into
“falsity” reads the scienter element out of the text of
the statute.
That scienter serves a distinct purpose under the
FCA further supports separating the falsity and
scienter analyses. Scienter helps to limit the
possibility that hospice providers would be exposed to
liability under the FCA any time the Government
could find an expert who disagreed with the certifying
physician’s medical prognosis. See United States ex rel.
Polukoff v. St. Mark’s Hosp., 895 F.3d 730, 743 (10th
Cir. 2018) (noting scienter requirements are “rigorous”
and can be used to address excessive liability
concerns). Indeed, the Supreme Court has instructed
as much. Escobar, 136 S. Ct. at 2002 (“[I]nstead of
adopting a circumscribed view of what it means for a
claim to be false or fraudulent, concerns about fair
notice and open-ended liability can be effectively
addressed through strict enforcement of the [FCA]’s
materiality and scienter requirements.” (internal
quotations and citations omitted)).
By requiring “factual evidence that Defendant’s
certifying doctor was making a knowingly false
determination,” the District Court’s “objective” falsity
standard conflates scienter and falsity. Druding, 346
F. Supp. 3d at 688 (emphases added). In finding that
Appellants could not prove falsity because they had
not produced evidence that any physician lied and
“received a kickback to certify any patient as hospice
eligible” or “certif[ied] any patient whom that
physician believed was not hospice eligible,” the

App-13
District Court incorporated a scienter element into its
analysis regarding falsity that was inconsistent with
the text and application of the statute. Id. at 687.
B.
The District Court’s “objective” falsity standard is
also at odds with this Court’s cases that have
interpreted falsity to encompass a theory of liability
based on non-compliance with regulatory instructions
and not just objectively verifiable facts.
As the District Court itself recognized, a claim can
be proven “false” in two ways: factually, when the facts
contained within the claim are untrue, and legally,
“when the claimant . . . falsely certifies that it has
complied with a statute or regulation the compliance
with which is a condition for Government payment.”
Druding, 346 F. Supp. 3d at 682 (quoting United
States ex rel. Wilkins v. United Health Grp., Inc., 659
F.3d 295, 305 (3d Cir. 2011)) (emphasis added)
(internal quotation marks omitted); see also Petratos,
855 F.3d at 487 (“[A] claim can be false if it does not
comply with statutory conditions for payment . . . .”);
Polukoff, 895 F.3d at 741 (noting legal falsity can be
express, such as a false affirmative statement of
compliance with a statutory, regulatory, or
contractual prerequisite, or it can be implied—for
instance, the absence of a material disclosure that
would have prevented compliance with a statutory,
regulatory, or contractual prerequisite). Although
legal falsity necessarily encompasses situations of
factual falsity, for instance, where a physician’s lies
about medical test results would render certifications
for reimbursement inaccurate and non-compliant with
regulations, cf. United States v. Paulus, 894 F.3d 267,

App-14
273 (6th Cir. 2018), the District Court nevertheless
limited its analysis to factual falsity.
According to the District Court, a medical expert’s
opinion is false for purposes of FCA liability only when
there is evidence of factual inaccuracy. In other words,
opinions being subjective, a differing medical
conclusion regarding a patient’s prognosis alone is not
enough to show the certifying physician’s
determination of terminal illness was factually
incorrect.
We disagree with the District Court’s decision to
circumscribe FCA falsity to findings of factual falsity.
This runs contrary to the cases in this Court, which
have recognized falsity to include legal falsity. See,
e.g., Petratos, 855 F.3d at 486; Wilkins, 659 F.3d at
305; United States ex rel. Quinn v. Omnicare Inc., 382
F.3d 432, 441 (3d Cir. 2004); see also United States v.
Neifert-White Co., 390 U.S. 228, 232 (1968) (observing
that the FCA “was intended to reach all types of fraud,
without qualification, that might result in financial
loss to the Government”). In other words, our cases
instruct that FCA falsity simply asks whether the
claim submitted to the government as reimbursable
was in fact reimbursable, based on the conditions for
payment set by the government. See Wilkins, 659 F.3d
at 305 (explaining that “[a] legally false FCA claim is
based on a ‘false certification’ theory of liability”
(citations omitted)); see also United States ex rel.
Walker v. R&F Props. of Lake Cty., Inc., 433 F.3d 1349,
1356 (11th Cir. 2005) (“Medicare claims may be false
if they claim reimbursement for services or costs that
either are not reimbursable or were not rendered as
claimed.”).

App-15
Under legal falsity, Appellants must show that
Care Alternatives failed to meet at least one of the two
regulatory requirements: (1) that a physician certified
the patient is terminally ill and (2) that the
certification is in accordance with section 418.22,
which requires that “[c]linical information and other
documentation that support the medical prognosis []
accompany the certification . . . .” 42 C.F.R. §§ 418.20,
418.22(b)(2). Based on this theory, we find that
disagreement between experts as to a patient’s
prognosis may be evidence of the latter; its relevance
need not be limited to evidence of the accuracy of
another physician’s judgment.
This interpretation is also supported by the Tenth
Circuit, which recently reversed a similar district
court decision that had adopted an “objective” falsity
requirement for FCA claims. Polukoff, 895 F.3d at 743,
745-46. In Polukoff, the Tenth Circuit considered
whether a cardiologist falsely represented in his
claims for Medicare reimbursement that the
procedures he was performing were reasonable and
necessary. Id. at 735, 738-39. In finding it “possible for
a medical judgment to be ‘false or fraudulent’ as
proscribed by the FCA,” the Tenth Circuit emphasized
that liability is not premised on factual falsity alone,
but a certification is false simply “if the procedure was
not reasonable and necessary under the government’s
definition of the phrase.” Id. at 742-43. There, the
Tenth Circuit adopted the view that FCA falsity is
based on legal falsity—that falsity is simply a question
of whether the claim is reimbursable, that is,
compliant with the Medicare reimbursement
instructions. Id. at 742-43. In so doing, it found that
the plaintiff-physician’s opinion that the defendant-

App-16
cardiologist’s procedures were not “reasonable and
necessary” was a cognizable allegation as to whether
the cardiologist’s reimbursement claims were “false”
for failing to comply with Medicare procedures. Id. at
743-44.
So, based on our cases and the Tenth Circuit’s
rationale in Polukoff, we will not limit our inquiry to
factual falsity and instead apply a theory of legal
falsity.
C.
Moreover, we reject the District Court’s brightline rule that a doctor’s clinical judgment cannot be
“false.” In United States v. Paulus, the Sixth Circuit
reversed a cardiologist’s acquittal for healthcare fraud
based on expert testimony that he recorded severe
arterial blockage in patients’ medical records when
the angiograms showed only mild or no blockage. 894
F.3d at 276-77, 280. In doing so, the Sixth Circuit
stressed that medical “opinions are not, and have
never been, completely insulated from scrutiny.” Id. at
275. For example, “opinions may trigger liability for
fraud when they are not honestly held by their
maker. . . .” Id. Such was the case in Paulus where the
defendant was charged with lying about the results of
angiograms he conducted and billed taxpayers for
procedures conducted based on those results. Id. at
272-73. As the Sixth Circuit explained, a good faith
medical opinion is not punishable, but a bright-line
rule that medical opinions can never be false fails to
hold accountable a physician who “saw one thing on
the angiogram and consciously wrote down another,
and then used that misinformation to perform and bill
unnecessary procedures.” Id. at 276. The court

App-17
concluded that whether the defendant was acting in
good faith or committing fraud by misrepresenting the
angiogram results was an appropriate question for the
jury. Id. at 276-77; see also United States v. Rockwell,
781 F.2d 985, 990 (3d Cir. 1986) (“The law will not
countenance a usurpation by the court of the function
of the jury to decide the facts and to assess the
credibility of the witnesses.”). In weighing that
decision, the jury could consider evidence of different
doctors who had interpreted the angiograms
differently. Paulus, 894 F.3d at 276-77.
We can apply these same principles to our civil
FCA case. The “reliability and believability of expert
testimony . . . is exclusively for the jury to decide.” Id.
at 277 (citations omitted). Contrary to the District
Court’s reasoning, medical opinions may be “false” and
an expert’s testimony challenging a physician’s
medical opinion can be appropriate evidence for the
jury to consider on the question of falsity.
D.
In adopting and applying an “objective” falsity
standard, the District Court relied on United States v.
AseraCare Inc., 153 F. Supp. 3d 1372 (N.D. Ala. 2015)
(“AseraCare I”) and United States v. AseraCare Inc.,
176 F. Supp. 3d 1282 (N.D. Ala. 2016) (“AseraCare
II”). 3 Since the Eleventh Circuit issued its opinion
3 It also relied on United States ex rel. Wall v. Vista Hospice
Care, Inc., No. 3:07-CV-00604-M, 2016 WL 3449833 (N.D. Tex.
June 20, 2016) (“Vista Hospice”), an unreported case from the
Northern District of Texas whose relevant facts and holding are
nearly identical to those in AseraCare I and AseraCare II. Like
Appellants here and the plaintiffs in AseraCare, the plaintiffrelator in Vista Hospice was also a former employee of the

App-18
affirming both AseraCare I and AseraCare II’s
adoption of the “objective” falsity standard shortly
before oral argument in this case, we briefly discuss
our reasons for departing from our sister circuit.
United States v. AseraCare, Inc., 938 F.3d 1278 (11th
Cir. 2019) (“AseraCare III”).
In AseraCare, former employees of the defendant
hospice provider brought a qui tam suit alleging that
AseraCare had a practice of knowingly submitting
unsubstantiated Medicare claims in violation of the
FCA. Id. at 1284. The Government chose to intervene.
Id. In deciding AseraCare’s first motion for summary
judgment, the district court declined to adopt a
“reasonable doctor” standard for the assessment of
falsity, which would have required the Government to
show that a reasonable physician could not have held
the opinion that the patient was certifiably ill. Id. at
1285-86. The case proceeded to a bifurcated trial
where the falsity element was tried first, followed by
the remaining elements and the other common law
claims in the second phase. Id. at 1286. During the
first phase, the parties presented dueling expert
defendants, which are hospice care providers in fourteen states.
Vista Hospice, 2016 WL 3449833, at *1. The qui tam suit alleged
that the defendants violated the FCA by “causing patients who
were not eligible for the MHB to be certified as eligible, and then
submitting claims for ineligible patients[.]”Id. As here, the
district court granted summary judgment in favor of defendants,
finding that a report by the relator’s expert, a hospice physician,
insufficient to create a genuine dispute of material fact regarding
the element of falsity. Id. at *5, *17-18 (holding that “[a]
testifying physician’s disagreement with a certifying physician’s
prediction of life expectancy is not enough to show falsity” (citing
AseraCare II, 176 F. Supp. 3d at 1283)).

App-19
opinions from two doctors about whether, based on
their own clinical judgment, the medical records of
particular
patients
supported
AseraCare’s
certifications that the patients were terminally ill. Id.
at 1287. The question was then put to the jury to
decide which expert’s testimony was more persuasive.
Id. at 1288-89. Following the partial verdict in which
the jury found some of the medical records supported
AseraCare’s certifications and some did not,
AseraCare moved for judgment as a matter of law,
arguing that the court had articulated the wrong
standard for falsity in its instructions to the jury. This
time, the district court agreed that it had committed
reversible error and that it should have advised the
jury that the FCA’s falsity element requires proof of
an objective falsehood and that “a mere difference of
opinion [between physicians] , without more, is not
enough to show falsity.” AseraCare I, 153 F. Supp. 3d
at 1384.
The district court then took the extra step of
considering summary judgment sua sponte and, after
additional briefing from the parties, granted summary
judgment in AseraCare’s favor based on the district
court’s newly adopted “objective” falsity standard.
AseraCare II, 176 F. Supp. 3d at 1284, 1286.
On appeal, the Eleventh Circuit affirmed the
district court’s adoption of the “objective” falsity test.
AseraCare III, 938 F.3d at 1296-97. In setting up its
discussion of FCA falsity, the Eleventh Circuit
rejected the Government’s framing of the falsity
inquiry as a question of “whether the clinical
information and other documentation accompanying a
certification of terminal illness support[s] . . . the

App-20
physician’s certification.” Id. at 1294. Instead, it
concluded that the supporting documentation
requirement is only designed to address the mandate
that there be a medical basis for certification. Id. at
1296-97. In deciding a claim’s eligibility is therefore
premised on the physician’s clinical judgment and
decision to certify a patient as terminally ill, the
Eleventh Circuit limited the relevant inquiry to
whether the Government had adduced sufficient
evidence of “the accuracy of the physician’s clinical
judgment regarding terminality.” Id. at 1294, 1296.
We depart from this framing of FCA falsity. As
previously articulated, limiting falsity to factual
falsity is inconsistent with our case law, which reads
FCA falsity more broadly as legal falsity,
encompassing circumstances where a claim for
reimbursement is non-compliant with requirements
under the statute and regulations. The MHB
regulations state two requirements: (1) that a
physician certifies the patient as terminally ill and
(2) that clinical information and documentation
supporting the prognosis accompany the certification.
42 C.F.R. §§ 418.20, 418.22(b)(2). Under a legal falsity
theory, a medical opinion that differs from the
certifying physician’s opinion is therefore relevant
evidence of the latter requirement, whether there was
documentation accompanying the certification that
supported the medical prognosis.
The Eleventh Circuit also determined that clinical
judgments cannot be untrue. AseraCare III, 938 F.3d
at 1297. (“[A] reasonable difference of opinion among
physicians reviewing medical documentation ex post is
not sufficient on its own to suggest that those

App-21
judgments . . . are false under the FCA.”). We again
disagree. In reaching the opposite determination, we
invoke the principles previously articulated—that the
common-law definition of fraud permits a finding that
subjective opinions may be considered false and that
medical opinions can be false and are not shielded
from scrutiny. Paulus, 894 F.3d at 276-77. We
therefore find that a difference of medical opinion is
enough evidence to create a triable dispute of fact
regarding FCA falsity.
This does not mean that objectivity is never
relevant for FCA liability. However, we find that
objectivity speaks to the element of scienter, not
falsity. As discussed above, the text and application of
the FCA require that the elements of falsity and
scienter be analyzed separately. In fact, AseraCare III
supports this position. The Eleventh Circuit affirmed
the adoption of the “objective” falsity test, but it
reversed the District Court’s sua sponte grant of
summary judgment in favor of the defendants and
remanded for further consideration of evidence the
Government had intended to present to show
“knowledge of the falsity of the claim.” AseraCare III,
938 F.3d at 1302. Although the Eleventh Circuit
instructions on remand were to consider all of the
evidence “to determine whether a triable issue existed
regarding falsity,” id. at 1303 (emphasis added), we
make clear that in our Court, findings of falsity and
scienter must be independent from one another for
purposes of FCA liability. 4 More than a formality, we
4 We acknowledge that the Seventh Circuit’s view differs
somewhat from our instruction to keep falsity and scienter
separate. United States ex rel. Yannocopoulos v. Gen. Dynamics,

App-22
seek to avoid the precise outcome in AseraCare II,
where the district court folded the element of scienter
into its “objective” falsity test, but failed to fully
consider evidence of scienter and, as a result,
prematurely granted summary judgment.
For these reasons, we are persuaded that the
District Court’s reliance on AseraCare II was
misplaced.
E.
Since the District Court’s decision to grant
summary judgment in favor of Care Alternatives was
based solely on its analysis of the falsity element, our
decision is limited to the same. So, regarding FCA
falsity, we reject the objective falsehood standard.
Instead, we hold that for purposes of FCA falsity, a
claim may be “false” under a theory of legal falsity,
where it fails to comply with statutory and regulatory
requirements. We also find that a physician’s
judgment may be scrutinized and considered “false.”
We therefore find that a physician’s expert
testimony challenging a hospice certification creates a
triable issue of fact for the jury regarding falsity. Since
Dr. Jayes’s expert report has done just that, we
conclude the report was sufficient evidence to create a
genuine dispute of material fact. Having found that
Appellants adduced enough evidence to overcome
summary judgment as to the element of falsity, we
need not address Appellants’ other arguments
652 F.3d 818, 836-37 (7th Cir. 2011) (citing United States ex rel.
Lamers v. City of Green Bay, 168 F.3d 1013, 1018 (7th Cir. 1999)
(requiring an objective falsehood based on a test that conflates an
analysis of the falsity and knowledge elements)).

App-23
regarding whether the evidence they submitted met
the District Court’s erroneous “objective” falsity test.
Nor do we opine as to Appellants’ odds of surviving
summary judgment on the other prima facie elements,
which the District Court did not reach.
IV. CONCLUSION
We therefore reverse the District Court’s grant of
summary judgment in favor of Defendant and remand
for consideration of the other elements of FCA
liability, consistent with this opinion.

App-24
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 18-3298
________________
UNITED STATES OF AMERICA AND STATE OF NEW
JERSEY EX REL. VICTORIA DRUDING; BARBARA BAIN;
LINDA COLEMAN; RONNI O’BRIEN,
v.

Appellants,

CARE ALTERNATIVES,
Appellee.
________________
Filed: May 6, 2020
________________
Present: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, HARDIMAN,
GREENAWAY, JR., KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges.
________________
ORDER
________________
The petition for rehearing filed by Appellee in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,

App-25
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc is
denied.
BY THE COURT,
s/Joseph A. Greenaway, Jr.
Circuit Judge
Dated: May 6, 2020

App-26
Appendix C
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF NEW JERSEY
________________
No. 08-2126
________________
VICTORIA DRUDING; BARBARA BAIN;
LINDA COLEMAN; and RONNI O’BRIEN,
v.

Plaintiff-Relators,

CARE ALTERNATIVES, INC.,
Defendant.
________________
Filed: Sept. 26, 2018
________________
OPINION
________________
SIMANDLE, District Judge:
I.

INTRODUCTION

Plaintiff-Relators in this qui tam action are
former employees of Defendant Care Alternatives, Inc.
(“Care Alternatives” or “Defendant”), a provider of
end-of-life hospice care throughout New Jersey. They
bring claims on behalf of the United States under the
False Claims Act (“FCA”), 31 U.S.C. § 3729 et seq.,
alleging that Defendant fraudulently billed Medicare
and Medicaid by routinely admitting and recertifying
inappropriate patients for hospice care. [Docket Item
12.] The United States investigated Plaintiff-Relators’

App-27
claims for more than seven years, but ultimately
declined to intervene in this matter. [Docket Item 15.]
The United States, however, remains an “interested
party” pursuant to 28 U.S.C. § 517. [Docket Item 153.]
Currently pending before the Court are
Defendant’s motions to dismiss [Docket Item 126] and
for summary judgment. [Docket Item 128.] The
central issues in Defendant’s motion to dismiss are
whether Plaintiff-Relators failed to comply with 31
U.S.C. § 3730(b)(2), which requires that a relator must
submit to the Government a “written disclosure of
substantially all material evidence and information
the person possesses,” and, if so, whether dismissal of
the Amended Complaint is warranted here. In the
alternative, Defendant seeks summary judgment on
several independent bases: (1) Plaintiff-Relators’
allegations of falsity have insufficient evidentiary
support; (2) there is insufficient evidence that
Defendants
submitted
legally
false
claims;
(3) Plaintiff-Relators have not satisfied the FCA
element of “materiality;” and (4) Plaintiff-Relators
have not adduced any evidence of scienter under the
FCA. For the reasons discussed below, the motion to
dismiss will be denied, while the motion for summary
judgment will be granted.
II. FACTUAL
AND
BACKGROUND 1

PROCEDURAL

A. Background
Plaintiff-Relators bring this qui tam action on
behalf of the United States for alleged violations of the
1 Pursuant to Local Civil Rule 56.1, the Court distills this
version of the facts from the First Amended Qui Tam Complaint

App-28

(hereinafter, “Am. Compl.”) [Docket Item 12] when appropriate,
Defendant’s Statement of Undisputed Material Facts [Docket
Item 131], Plaintiff-Relators’ Response in Opposition to
Defendant’s Statement of Undisputed Material Facts [Docket
Item 144-7], Defendant’s Reply to Plaintiff-Relators’ Response
[Docket Item 160], and related exhibits and documents attached
thereto.
The Court will, however, only consider properly documented
citations in Plaintiff-Relators’ “Counterstatement of Material
Facts.” [See Docket Item 144-8.] In addition to requiring the
opponent of summary judgment to “furnish, with its opposition
papers, a responsive statement of material facts,” which PlaintiffRelators filed [see Docket Item 144-7] and the Court will consider
as stated above, Local Civil Rule 56.1 permits the opponent of
summary judgment to “furnish a supplemental statement of
disputed material facts, in separately numbered paragraphs
citing to the affidavits and other documents submitted in
connection with the motion, if necessary to substantiate the
factual basis for opposition.” See L. Civ. R. 56.1 (emphasis added).
Plaintiff-Relators’ Counterstatement does not comply with this
rule. The Counterstatement reads like argument, either
untethered to specific cites to the record or citing to material in
the factual record that does not support the generalized
arguments in the Counterstatement.
While Plaintiff-Relators’ Counterstatement is technically
separated by numbered paragraphs and cites record evidence at
the end of each paragraph, many paragraphs contain numerous
sentences, including up to nine sentences in at least two
instances (see, e.g., ¶¶ 91, 93), and fails to identify in any
meaningful way which sentence in each paragraph is purportedly
substantiated by which affidavit and/or other document
submitted in connection with the motion. The Court is unable to
easily discern whether each sentence (i.e., statement) in the
Counterstatement is, in fact, supported by the voluminous
record, which stands nearly three feet high, and will not endeavor
to do so here. See Decree v. United Parcel Serv., Inc., 2009 WL
3055382, at *5 (D.N.J. Sept. 18, 2009) (“The Court further agrees
with UPS that Plaintiff’s ‘Counterstatement of Material Fact’ is
unwieldy at best and violates Rule 56.1’s insistence that facts be

App-29
FCA in connection with reimbursement claims that
Defendant submitted to Medicare and Medicaid
between 2006 and October 23, 2007. Plaintiff-Relators
generally allege a concerted effort by Defendant to
bring in patients to its residential facilities who were
not actually eligible for hospice care coverage under
Medicare, notwithstanding that each patient was
certified as hospice eligible by an independent
physician. (See generally Am. Compl.) Specifically, the
Amended Complaint identifies 15 patients whose
medical records allegedly did not support a finding of
terminal prognosis. (Id. at ¶ 25.)

set forth in separately numbered paragraphs and that factual
allegations be supported with citation to the record.”).
This Court has invested a great deal of time in examining the
parties’ submissions, but there are limits beyond which the Court
must rely on the advocates’ substantial compliance with their
obligations in summary judgment practice in a complex factual
case. “The purpose of the Rule 56.1 statement is for the parties to
identify the facts relevant to the pending motion so the Court
may determine whether a genuine dispute exists without having
to first engage in a lengthy and timely review of the record.”
Vibra-Tech Engineers, Inc. v. Kavalek, 2011 WL 111417, at *2
(D.N.J. Jan. 13, 2011). “[S]trict compliance with Local Rule 56.1
helps the Court and the parties insure the proper application of
summary judgment standards.” Fifth v. State Farm Ins. Co., 2014
WL 1253542, at *1 (D.N.J. Mar. 25, 2014). Again, the
Counterstatement does not make the Court’s job any easier
because it seldom attempts to delineate which specific statement
is supported by which piece of record evidence, nor does it comply
with the Local Rules. Accordingly, because the Court is not
equipped to search the volume of this record to seek support for
Plaintiff’s generalized Counterstatement, the Court will consider
only those factual assertions for which direct record support is
cited.

App-30
1.

Defendant Care Alternatives

Defendant Care Alternatives provided hospice
care to patients throughout New Jersey. (Veltri Dep.
[Docket Item 128-6] at 25:1-4, 76:4-78:1; see also
Spoltore Dep. [Docket Item 128-4] at 21-1-26:25,
46:12-47-8.) To that end, Defendant employed a
variety of clinicians, including registered nurses,
chaplains, social workers, home health aides, and
therapists, and worked with independent physicians
who served as hospice medical directors. 2 (Spoltore
Dep. at 75:1-8; see also Care Alternative’s Polices
regarding Hospice Services [Docket Item 128-5] at 7,
10-17, 26-29, 38-39.) Together, these clinicians formed
so-called “interdisciplinary teams” (hereinafter,
“IDTs”), which met twice a month to review patient
care plans, identify any particular patient needs, and
discuss patients who were up for re-certification.
(Spoltore Dep. at 149:25-150:15.) The IDTs also
provided integrated care and services pursuant to
individualized patient plans of care. (Id. at 21:1526:26; see also Policies at 1.) The medical directors who
Defendant did not employ the physicians who certified its
patients for the hospice benefit. (Spoltore Dep. at 59:8-60:2.)
Rather, these physicians were either independent contractors or
agents of contractors (in the case of hospice medical directors) or
not affiliated with Care Alternatives at all (in the case of
physicians who served only in an attending capacity). (Id. at
37:13-23; see also Veltri Decl. [Docket Item 128-6] at ¶ 4.)
Compensation for medical directors was fixed, set in advance,
and did not vary based on the number of patients a physician
certified for hospice. (Id. at ¶ 5.) According to Plaintiff-Relator
Druding, however, Care Alternatives kept score of each medical
director’s patient referrals and, if doctors did not provide enough
referrals, Care Alternatives parted company with the doctors.
(Druding Dep. at 224:21-225:5.)
2

App-31
were part of Defendant’s Southwest Region IDT
during the relevant period were Dr. Wadawa, Dr.
Uwewemi, and Dr. Dignam. (Druding Dep. [Docket
Item 144-3] at 23:13-25:1.)
According to Care Alternatives Hospice
Administrator Loretta Spoltore (“Spoltore”), 3 Care
Alternatives had well-established compliance, quality
assurance, training, and auditing programs that were
designed to ensure “continuous improvement” and
“strove to make sure that what [the company was
doing] was at or above national standards.” (Spoltore
Dep. at 94:16-24; see also Veltri Dep. [Docket Item
128-7] at 45:13-46:1.) Spoltore also testified that Care
Alternatives devoted significant resources to ensuring
that clinicians created thorough patient medical
records. (Spoltore Dep. at 114:21-117:12.)
Care Alternatives’ Susan Coppola (“Coppola”) 4 led
quarterly medical record audits to ensure that they
were complete and contained documentation required
by company policy. (Coppola Dep. [Docket Item 128-8]
at 17:13-18:11, 56:19-58:4.) Nurses, full-time auditors,
and regional managers assisted with these auditing
efforts and, if deficiencies were identified, it was
generally the regional manager’s responsibility to
develop and implement corrective action plans. (Id. at

Spoltore was the person responsible for overseeing the day-today operations of Care Alternatives’ clinical program for New
Jersey from November 2005 through January 2010. (Spoltore
Dep. at 8:7-11:6.)
3

4 From 2006 to 2011, Coppola worked in the compliance
department at Care Alternatives, ultimately reaching the level of
Chief Compliance Officer. (Coppola Dep. at 12:3-23.)

App-32
78:13-80:12; Spoltore Dep. at 74:8-75:12, 114:21117:12.)
It was Care Alternatives’ practice to provide
education to staff members of “every policy and
procedure, every audit form, every paper” in use by
Care Alternatives. (Coppola Dep. at 96:21-97:3.) Care
Alternatives employees generally received compliance
training on an annual basis. (Spoltore Dep. at 95:2596:14.) Moreover, newly-hired nurses were provided
compliance orientation and then educated by their
individual teams, other nurses, social workers, and
chaplains so that they understood the standards of
care and practice for Care Alternatives. (Id. at 34:1335:22; see also Coppola Dep. at 97:4-97:19.) Care
Alternatives’ compliance training was “an ongoing
educational process.” (Coleman Dep. [Docket Item
130-2] at 30:17-31:2.)
In addition to its internal compliance efforts, Care
Alternatives was audited by (and conferred
accreditation by) Community Health Accreditation
Partner
(“CHAP”)
a
non-profit,
third-party
accreditation agency that conducted on-site surveys of
Care Alternatives. (Coppola Dep. at 14:1-7.) To that
end, Care Alternatives required that all patient
medical records be timely delivered and stored in its
headquarter offices in Cranford, New Jersey in the
event CHAP visited for an on-site review of Care
Alternatives’ program on short notice. [Docket Item
144-5 at 2.] Care Alternatives hired a consultant, Toni
Swick, to review the medical preparation of any
possible State audit or CHAP review. (Veltri Dep. at
145:1-146:6.)

App-33
2.

Plaintiff-Relators

Plaintiff-Relators Victoria Druding, Linda
Coleman, Barbara Bain, and Ronni O’Brien are former
Care Alternatives employees. (Am. Compl at ¶ 1.)
a.

Victoria Druding

b.

Linda Coleman

Victoria Druding (“Druding”) was employed by
Care Alternatives as a Regional Manager of the
Southwest Region for almost six months, from April
17, 2007 through September 6, 2007, when she quit
without giving notice. (Druding HR File [Docket Item
128-11] at 1-2; Druding Dep. at 23:1-23:18.) As
Regional Director, Druding was responsible for
management of the clinical team, which included
nurses, social workers, chaplains, and directors. (Id.
at 23:13-25:1.) She was also responsible for ensuring
that IDT meetings were scheduled and held in a
timely manner. (Id.)
Linda Coleman (“Coleman”) was employed by
Care Alternatives as a Registered Nurse (“RN”) Case
Manager in the Southwest Region of New Jersey from
April 2004 to September 2007. (Coleman Dep. at 9:1810:1, 12:20-14-8.) As RN Case Manager, Coleman’s
duties were to “visit patients wherever they
were . . . [and] trying to develop relationships for more
referrals.” (Id. at 8:15-21.) According to Coleman, her
job “was to be the coordinator for patient
care, . . . [which] involved making sure the patient
was in a safe environment, had a caregiver, had a
physician that was willing to work with hospice,
medications necessary, pulling in the rest of the
team . . . . It was my responsibility to make sure that

App-34
that all happened in a timely fashion for the care and
comfort of the patient.” (Id. at 14:18-15:6.)
c.

Barbara Bain

d.

Ronni O’Brien

Barbara Bain (“Bain”) was employed by Care
Alternatives as a Chaplain in the Southwest Region of
New Jersey from December 28, 2003 to 2007. (Bain
Dep. [Docket Item 130-3] at 8:15-9:4, 10:20-11:11,
12:4-6.) According to Bain, her job was more spiritual
than religious, and she was responsible for helping
patients feel good with themselves and repair their
relationships with a church, their family, or
themselves. (Id. at 15:8-17.) Bain testified that, as a
member of the IDT, she always participated in the IDT
meetings where patient care and hospice eligibility
were discussed. (Id. at 25:19-26:18, 32:10-33:17.)
Ronni O’Brien (“O’Brien”) was employed as a
Community Education Liaison for the Southwest
Region of Care Alternatives New Jersey. (O’Brien
Dep. [Docket Item 128-15] at 11:17-12:21.) O’Brien’s
job was to bring in patient referrals and admissions,
and she reported to marketing director Colleen Swick,
(id. at 10:16-24), and she regularly participated in
weekly marketing phone calls with Colleen Swick and
Care Alternatives CEO Sam Vetri. (Id. at 73:4-74:15.)
O’Brien was not a clinician and had no training or
responsibility for evaluating patients for hospice
eligibility. (Id. at 39:7-15.)
B. Hospice Care and the Medicare Hospice
Benefit
Congress established the Medicare Hospice
Benefit (“MHB”) in 1983. See 48 Fed. Reg. 56008 (Dec.

App-35
16, 1983). Under federal regulations, hospice 5 care is
considered palliative care, meaning it is “patient and
family-centered care that optimizes quality of life by
anticipating, preventing, and treating suffering,” see
42 C.F.R. § 418.3, and it is designed around “an
interdisciplinary approach to provide a variety of
services, including medical, social, psychological,
emotional, and spiritual, with the goal of making a
terminally ill person as physically and emotionally
comfortable as possible,” see 48 Fed. Reg. 56008.
A patient who has been certified as eligible for
hospice and who elects to receive hospice care
voluntarily waives the right to Medicare payment for
curative treatment, and instead receives only
palliative care to manage pain or other symptoms of
their terminal prognosis. See 42. U.S.C. § 1395d(2)(A).
A Medicare beneficiary is eligible for the MHB if his or
her attending physician and a hospice medical director
certify that the individual is terminally ill. 6 42 U.S.C.
§ 1395f(a)(7)(A)(i) (eff. Jan. 1, 2005). That certification
should be “based on the physician’s or medical
director’s clinical judgment” and must include “clinical
Between January 23, 2006 and 2011, Medicare Hospice
regulations specifically defined “hospice” as “a comprehensive set
of services described in 1861(dd)(1) of the [Social Security] Act,
identified and coordinated by an interdisciplinary group to
provide for the physical, psychosocial, spiritual, and emotional
needs of a terminally ill patient and/or family members, as
delineated in a specific patient plan of care.” [Docket Item 144-1
at 2-35.]
5

6 “An individual is considered to be ‘terminally ill’ if the
individual has a medical prognosis that the individual’s life
expectancy is 6 months or less.” 42 U.S.C. § 1395x(dd)(3)(A) (eff.
Dec. 29, 2007); see also 42 C.F.R. § 418.3.

App-36
information and other documentation that support the
medical prognosis” and “a brief narrative explanation
of the clinical findings that supports a life expectancy
of 6 months or less as part of the certification and
recertification forms.” 42 C.F.R. § 418.22(b).
The MHB provides two 90-day benefit periods for
eligible patients, followed by an unlimited number of
60-day benefit periods. 42 U.S.C. § 1395f(a)(7)(A); 42
C.F.R. § 418.21(a). After a patient is initially certified
by hospice by an attending physician and a hospice
medical director, the patient need only be recertified
for subsequent benefit periods by an attending
physician or hospice medical director. 42 U.S.C.
§ 1395f(a)(7)(A)(ii); 42 C.F.R. § 418.22.
The Centers for Medicare & Medicaid Services
(“CMS”), which is responsible for administering the
MHB, has stated that:
Recognizing that prognoses can be uncertain
and may change, Medicare’s benefit is not
limited in terms of time. Hospice care is
available as long as the patient’s prognosis
meets the law’s six month test. This test is a
general one. As the governing statute says:
‘The certification of terminal illness of an
individual who elects hospice shall be based
on the physician’s or medical director’s
clinical judgment regarding the normal
course of the individual's illness.’ CMS
recognizes
that
making
medical
prognostication of life expectancy is not
always an exact science. Thus, physicians
need not be concerned. There is no risk to a
physician about certifying an individual for

App-37
hospice care that he or she believes to be
terminally ill.
CMS’s
Program
Memorandum
Intermediaries/Carriers, Subject: Provider Education
Article: “Hospice Care Enhances Dignity and Peace as
Life Nears Its End,” CMS-Pub. 60AB, Transmittal AB03-040 (Mar. 28, 2003).
CMS has not created clinical benchmarks that
must be satisfied to certify a patient as terminally ill.
See 73 Fed. Reg. 32088, 32138 (June 5, 2008) (“We
have removed the term ‘criteria’ in order to remove
any implication that there are specific CMS clinical
benchmarks in this [proposed] rule that must be met
in order to certify terminal illness.”) Instead, CMS has
been clear that a patient who stabilizes or improves
may nevertheless remain eligible for hospice care. See
75 Fed. Reg. 70372, 70488 (Nov. 17, 2010) (“A patient’s
condition may temporarily improve with hospice
care.”); 74 Fed. Reg. 39384, 39399 (Aug. 6, 2009) (“We
also acknowledge that at recertification, not all
patients may show measurable decline.”).
C. Procedural History
On April 29, 2008, Plaintiff-Relators filed the
original Qui Tam Complaint on behalf of the United
States in camera and under seal in accordance with 31
U.S.C. § 3730(b). [Docket Item 1.] On September 15,
2009, the Court ordered the United States to advise if
it intended to intervene or decline to intervene.
[Docket Item 8.] The United States subsequently filed
an application for an order staying and
administratively terminating the action to provide the
United States with sufficient time to investigate the
matter and decide whether to intervene, which the

App-38
Court granted. [Docket Item 11.] The Complaint was
amended in 2013 to add state law claims under New
Jersey’s FCA. [Docket Item 12.] On July 21, 2015
(more than five years after the case was stayed and
seven years after the Complaint was filed), the United
States finally notified the Court of its decision to not
intervene in this action. [Docket Item 15.] A redacted
copy of the First Amended Qui Tam Complaint was
thereafter served upon Defendant on July 29, 2015.
[Docket Item 16.]
On September 25, 2015, Defendant filed its first
motion to dismiss [Docket Item 27], which the Court
granted in part and denied in part in an Opinion and
Order dated February 22, 2016. [See Docket Items 47
& 48.] The Court dismissed without prejudice and
with leave to amend Plaintiff-Relators’ claims
regarding altered documentation and violations of the
Anti-Kickback Statute arising under an implied
legally false theory under the FCA and the NJFCA,
and dismissed with prejudice Plaintiff-Relators’
claims alleging violations of the Stark Act and
noncompliance with the IDT requirement. Druding v.
Care Alternatives, 164 F. Supp. 3d 621, 632-35 (D.N.J.
2016). The Court permitted Plaintiff-Relators’ to
proceed only with their FCA allegations regarding
inappropriate patient admissions and recertifications
for hospice care. Id. at 630-32.
On March 8, 2016, Plaintiff-Relators notified the
Court they were electing not to file a motion for leave
to file a Second Amended Complaint, but instead “will
proceed in the matter regarding inappropriate patient
admission and recertifications for hospice care as set

App-39
forth in the [February 2016] Order.” [Docket Item 49
at 1.]
Currently pending before the Court are two
motions filed concurrently by Defendant: a motion to
dismiss pursuant to 31 U.S.C. § 3730(b)(2) [Docket
Item 126], and a motion for summary judgment.
[Docket Item 128.] Plaintiff submitted opposition to
both motions [Docket Items 143 & 144] and Defendant
filed reply briefs in further support of each motion.
[Docket Items 155 & 158.] With leave of Court [Docket
Item 180], Plaintiff filed a sur-reply brief in opposition
to Defendant’s motion for summary judgment. [Docket
Item 169] The United States also filed a “statement of
interest” in response to Defendant’s motion for
summary judgment [Docket Item 153], pursuant to 28
U.S.C. § 517. With leave of the Court [Docket Item
179], Defendant filed a response to the Government’s
statement of interest. [Docket Items 168.] The Court
convened oral argument on May 10, 2018. [Docket
Item 191.] The pending motions are now fully briefed
and ripe for disposition.
D. The Evidence
The evidence consists of: (1) deposition testimony
and documents regarding whether Defendant
improperly admitted ineligible patients; (2) deposition
testimony alleged to establish that Defendant directed
its employees to alter certifications; (3) a report by
Plaintiff-Relators’ expert, Dr. Jayes, in which he
reviewed patient records for 48 Care Alternatives
patients to evaluate the patients’ eligibility for hospice
care; and (4) a report by Defendant’s expert, Dr.
Hughes, in which he addressed Dr. Jayes’ findings.

App-40
1.

Testimony And Documents About
Defendants Allegedly Admitting
Ineligible Patients

During discovery, Care Alternatives produced
almost 50,000 pages of documents. [Docket Item 12817.] Plaintiff-Relators were also deposed, as were
several other Care Alternatives employees. The
documents and testimony addressing whether
Defendant
admitted
ineligible
patients
are
summarized as follows:
a.

Druding’s Testimony

Plaintiff-Relator Druding testified that patient
A.P. could “walk without limitations, without
assistance,” “could talk as well as you and I are talking
right now,” was “always . . . able to [string together
multiple sentences in a conversation,” “was gaining
weight,” and “her weight was going up instead of
down.” (Druding Dep. at 198:3-5, 198:17-18, 199:5-11.)
According to contemporaneous nursing assessments
which Druding herself authenticated (id. at 214:21215:3; 218:11-20), however, Druding documented that
the same patient was “wheelchair restricted [which]
means they’re restricted to the wheelchair, they’re not
going anywhere without the wheelchair,” had lost 43
pounds while on hospice, and that the “Undersigned
[Druding] has deterimined patient remains hospice
appropriate as evidenced by . . . weight loss despite a
rigorous feeding program . . . [increased] lethargy,
increase sleeping, decreased communication, increase
in need for assistance, decrease [in] socialization.” (See
Nursing Assessment [Docket Item 130-5] at 2-7.)
Notwithstanding these discrepancies, as discussed
infra, Druding insists that she never falsified

App-41
documentation in patient medical records. (See
Druding Dep. at 53:20-54:13; 63:18-64:1; see also Pl.’s
Response to Def.’s Second Request for Admission
[Docket Item 126-3] at ¶ 2.)
Druding testified that she knew of a Care
Alternatives physician certifying a patient as
terminally ill when the physician did not believe it to
be true, but could not provide any supporting
information. (Druding Dep. at 144:20-149:22.) She
also testified that she did not know if any physician
was pressured by Care Alternatives employees to
certify a patient for hospice at all, let alone to certify a
patient who was not appropriate for hospice care. (Id.
at 109:20-23.)
b.

Coleman’s Testimony

Plaintiff-Relator Coleman identified two patients,
W.B. and H.J., as not appropriate or eligible for
hospice. With respect to W.B., Coleman testified that
she was instructed by Druding to check off the box for
W.B. indicating he was only able to speak six
intelligible words or fewer (which would qualify him
for hospice care), even though the patient was, in fact,
able to speak more than six words (which would not
qualify him for hospice care). (Coleman Dep. at 156:14158:3.) As Coleman explained, “This man did not, was
not able, if I understand or reading my notes
correctly . . . this was a patient that the facility
wanted us to admit because he was above and beyond
what they were capable of handling. So this was one
of those that was pressed on us to admit this patient,
to find a diagnosis and to put him on, okay to keep our
census up and to be accommodating the facility.” (Id.
at 157:6-16.) With respect to H.J., Coleman testified

App-42
that he was schizophrenic (which would not qualify
him for hospice care), but she was still pressured by
Druding to admit the patient for “dementia with
depression” (which would qualify him for hospice care)
when he did not actually meet the criteria for such a
diagnosis. (Id. at 171:19-173:23.) Nevertheless, as
discussed infra, Coleman maintains she never altered
or falsified any patient’s medical records.
Coleman testified that she recalled one instance
“where our medical director felt that the patient was
questionable [and] . . . maybe a diagnosis needed to be
different or whatever.” (Id. at 34:1-7.) But Coleman
could not recall whether the medical director was Dr.
Uwewemi or Dr. Dignam and she could not remember
the name of the individual patient. (Id. at 34:9-12.)
When asked about any other specific recollections she
might have, Coleman testified “I can’t give you any
names of patients or whatever, but just concerns with,
you know, length of stay, type of diagnosis, what the
patient is actually able to do.” (Id. at 51:1-4.)
Coleman never reported any hospice eligibility
concerns to Care Alternative’s compliance department
(id. at 48:18-49:3), but testified that she complained to
her coworkers, including Druding, regarding the
working conditions at Care Alternatives, and voiced
her concerns about inappropriate patient admissions,
certifications, and recertifications during IDT
meetings. (Id. at 50:23-51:4, 53:21-55:4, 65:6-14.)
Coleman recalled that when she raised any
concerns at IDT meetings, the physicians’ reactions
were “[a]ttentive and checking information in the
record that they had before them, the copies, and
discussing with the regional manager.” (Id. at 52:1-5.)

App-43
Coleman also testified that, in her experience the
hospice medical directors were “absolutely” engaged
during discussions at IDT meetings about patients
and were “[v]ery proactive” (id. at 35:20-25), and that,
in her opinion, Dr. Uwemi and Dr. Dignam
“absolutely” had the patient’s best interest at heart.
(Id. at 52:6-16.) Furthermore, Coleman testified that
she did not believe that any medical directors or other
physicians affiliated with Care Alternatives were
certifying patients for hospice when they did not
believe that the patients were terminally ill. (See
Coleman Dep. at 43:5-19.) (“Q: Did you ever have a
belief that either of the physicians you remember, Dr.
Dignam or Dr. Uwewemi, were certifying patients for
hospice when they didn’t believe the patient to be
terminally ill? A: No. I really don’t think that they
did. . . . Q: Did either of the medical directors ever tell
you that they didn’t think a patient was appropriate
for hospice? A: No.”). When asked: “Do you have
firsthand knowledge of a physician certifying a patient
as terminally ill when the physician did not believe the
certification to be true?” Coleman responded, “No.”
(Id. at 67:8-12.)
c.

Bain’s Testimony

Plaintiff-Relator Bain testified that, while she is
not a clinician and does not have any formal training
on hospice eligibility (Bain Dep. at 16:4-23), in her
estimation, 90 percent of patients at Care Alternatives
were appropriate for hospice. (Id. at 86:11-87:2.) Bain
never reported any concerns about patient eligibility
to Care Alternative’s compliance department (id. at
81:1-82:18), but she testified that she reported
concerns about patient eligibility at IDT meetings. (Id.

App-44
at 34:14-35-17.) Bain also testified that she had no
firsthand knowledge of any physician having certified
a patient as terminally ill at Care Alternatives when
the physician did not believe the patient to be
terminally ill. (Id. at 101:18-102:1.)
d.

O’Brien’s Testimony

Plaintiff-Relator O’Brien never reported any
concerns about patient eligibility to Care Alternatives’
compliance department (id. at 43:6-54:7), but testified
that she complained about her concerns regarding
hospice eligibility to her supervisor, Colleen Swick.
(Id. at 43:3-44:24.) According to O’Brien, Colleen
Swick responded that the issue of hospice eligibility
was “not her concern” because she was not a nurse and
“could not make diagnoses.” (Id.) O’Brien also testified
that, on weekly calls, Colleen Swick and Vetri
instructed employees to “build the census no matter
how they did it” and “bring me bodies.” (Id. at 73:474:15.) O’Brien testified that she discussed
inappropriate hospice admissions with other Care
Alternatives regional marketing personnel from other
regions of the company. (Id. at 42:22-43:2.)
e.

Kelton’s Testimony

In August 2007, Care Alternatives’ Lauren Kelton
(“Kelton”) 7 conducted an internal compliance
investigation into complaints that nurses in the
Southwest Region of New Jersey felt pressured to
7 Kelton was the Clinical Director of Care Alternatives New
Jersey from 2007 to early 2009 and, in this role, she oversaw
clinical operations in New Jersey, which included oversight of
and involvement with clinical documentation practices,
corrective action plans, and issues relating to hospice admissions
and elevated levels of care. (Kelton Aff. at ¶¶ 2-4.)

App-45
admit patients whom the nurses believed were not
appropriate for hospice. (Kelton Aff. [Docket Item 12813] at ¶ 5.) During this investigation, Kelton
interviewed several nurses in the Southwest Region
who told her that “Druding was the person who was
pressuring nurses to admit patients who the nurses
did not believe were appropriate for hospice and to
maintain patients on elevated levels of care whom the
nurses did not believe were appropriate for that level
of care.” (Id. at ¶ 6.) Specifically, Kelton stated that
“[t]wo nurses informed [her] that they felt from
Druding an unwritten, unspoken pressure to maintain
patients on elevated levels of care and this was in one
case because the nurse was informed by . . . Druding
that part of her bonus structure was contingent on the
number of patients on elevated levels of care.” (Id.)
Kelton testified that when she informed Druding
about the reports of perceived pressure and asked
Druding if she knew by whom these nurses felt
pressured, Druding responded “Well I guess by me.”
(Id. at ¶ 7.) According to Kelton, Druding “resigned
before Care Alternatives had the opportunity to
terminate her.” (Id. at ¶ 9.) Kelton contemporaneously
documented these findings in a memorandum dated
August 27, 2017. (Id. at ¶ 8; see also Exhibit A to
Kelton Aff. [Docket Item 128-13] at 6-7.)
Kelton further testified that, during her entire
tenure at Care Alternatives, she never heard or
received any report or allegation that any employee or
contractor of Care Alternatives, other than Druding,
had ever pressured any person to admit a patient who
was not appropriate for hospice. (Kelton Aff. at ¶ 10.)
According to Kelton, Care Alternatives “was dedicated
to abiding by applicable rules and regulations and

App-46
always endeavored to ‘do the right thing.’” (Id. at
¶ 11.) Throughout her time as an employee of Care
Alternatives, Kelton “never had any concerns that
Care Alternatives was engaging in a practice of
admitting patients who were inappropriate for hospice
or keeping patients on elevated levels of care who did
not warrant that level of care.” (Id. at ¶ 12.)
f.

Coppola’s Testimony

g.

Spoltore’s Testimony

Coppola, Care Alteratives’ Chief Compliance
Officer, testified that she never heard or received any
report that any nurse had been pressured to document
improper hospice diagnoses, and that if she had
received such a report, she would have addressed it
immediately and supported the nurse who reported it.
(Coppola Dep. at 99:1-18.)
Care Alternatives Hospice Administrator Spoltire
testified that she never received reports from nurses
or case managers questioning a patient’s
appropriateness for hospice or the length of the stay,
nor did she ever hear of pressure to admit patients
who were not appropriate for hospice. (Spoltore Dep.
at 158:12-160:9.)
h.

Veltri’s Testimony

Care Alternatives CEO Sam Veltri (“Veltri”)
testified that he never received any reports that Care
Alternatives was maintaining patients who were
inappropriate for hospice and that if he had received
such a report, he would “have taken immediate steps
to get to the bottom of that.” (Veltri Dep. at 157:10158:2.)

App-47
2.

Plaintiff-Relators’
Testimony
Involving Allegations of Alteration

Druding testified that Toni Swick instructed her
“in a group with regional managers and individually
in discussion” to falsify, alter, or otherwise change
medical documentation. (Druding Dep. at 53:16-18;
63:5-11.) According to Druding, “[w]hen we audited
charts, if we found something that . . . did not promote
compliance, whether it was fact or not, we were to
change it.” (Id. at 53:20-24.) Druding testified,
however, that she never made these changes herself,
including in the case of A.P. discussed above, because
she could have sacrificed her nursing license if she
had. (Id. at 54:9-13.) Instead, Druding testified,
various unnamed “members of the staff,” including
nurses, chaplains, and social workers falsified,
altered, or otherwise changed documents “upon
instruction.” (Id. at 54:17-20.) Druding could not
identify any specific individuals who falsified, altered,
or otherwise changed documents. (Id. at 54:21-55:12;
see also id. at 56:7-15.)
Coleman testified that in August 2007 Druding
directed her to “make the chart complete,” which
meant “[w]hatever it required. If notes were missing,
which there were many missing, they wanted them
regenerated you know. . . .” (Coleman Dep. at 80:1622; 77:1-17; 80:12-14; see also id. at 181:8-14) (“Q: Do
you ever recall being instructed to backdate
paperwork? A: Yes. By who? A. Regional manager. Q:
Victoria? A: By Victoria. Sorry.”) Coleman testified
that, notwithstanding these instructions, she never
entered documentation in medical records that she

App-48
knew was not true, nor did she know of anyone who
did. (Id. at 89:16-90:16.)
O’Brien testified that she was generally aware of
Care Alternatives employees, including Druding and
two unnamed social workers, going up to “change
records” and “write whatever needed to be written in
the charts.” (O’Brien Dep. at 62:15-20; 64:5-24; 65:1112.) However, O’Brien clarified, “Nobody had said that
they falsified.” (Id. at 65:3-6.) O’Brien also testified “I
don’t know exactly what they did. I was not there. I
was not privy to see.” (Id. at 65:13-14.)
3.

Dr. Jayes’ Expert Report

On August 20, 2017, Plaintiff-Relators’ expert, Dr.
Robert Jayes, M.D., prepared a report summarizing a
review he conducted of the medical records for 47
patients whose records Care Alternatives produced
during discovery, including the 15 patients identified
in paragraph 25 of the Amended Complaint. (See
Jayes Report [Docket Items 130-6 & 130-7].) In his
report, Dr. Jayes explained that “[d]etermining the
prognosis of patients with a serious terminal illness
referred to hospice is a difficult task that depends on
the judgment and experience of clinicians and the
consideration of survival evidence from the
literature.” (Id. at 1.) “Recognizing this difficulty,” Dr.
Jayes looked to guidelines provided with the
assistance of clinical experts from the National
Hospice and Palliative Care Organization in the mid
1990’s, as well as “several other criteria typically
employed by hospice professionals,” to determine
whether documentation supported certification and/or

App-49
recertification of the 47 patients he reviewed for
hospice. (Id. at 1-3.)8
According to Dr. Jayes, 214 out of 603 (or 35%) of
the periods of hospice certification periods he reviewed
lacked documentation supporting hospice care. (Id. at
1.) Dr. Jayes further opined that of the 47 patients
whose records he reviewed, 26 were appropriate for
hospice at all times and 16 more were appropriate for
at least a part of their stay in hospice. (Id. at Appendix
A.) Of the 15 patients identified in the Amended
Complaint, Dr. Jayes opined that 8 were appropriate
for hospice care for the entirety of their time in hospice
while 4 more were appropriate for the majority of the
time they were in hospice. (Id. at 19.) Dr. Jayes also
found that at least 3 medical records appeared to be
incomplete because those records were cut off at
December 31, 2009 even though the patient
apparently remained in hospice. (Id. at 7.)
4.

Dr. Hughes’ Expert Report

For each benefit period where Dr. Jayes
determined that a patient was inappropriate for
hospice based on his review of the medical records,
Defendant’s expert, Dr. Christopher Hughes, M.D.,
reviewed Dr. Jayes’ findings. (Dr. Hughes Report
[Docket Item 130-1].) In each instance, Dr. Hughes,
based on his experience and clinical judgment, found
it to be reasonable that a physician would have
certified each patient Dr. Jayes reviewed for hospice
during the benefit period in question. (Id. at 31-50.)
8 Defendant indicated that a motion to exclude the testimony
of Dr. Jayes based on unreliable methodology is “forthcoming.”
[Docket Item 129 at 26 n. 12.]

App-50
III. STANDARD OF REVIEW
At summary judgment, the moving party bears
the initial burden of demonstrating that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law. Fed.
R. Civ. P. 56(a); accord Celotex Corp. v. Catrett, 477
U.S. 317, 323 (1986). Once a properly supported
motion for summary judgment is made, the burden
shifts to the non-moving party, who must set forth
specific facts showing that there is a genuine issue for
trial. Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
250 (1986). In reviewing a motion for summary
judgment, the court is required to examine the
evidence in light most favorable to the non-moving
party, and resolve all reasonable inferences in that
party’s favor. Hunt v. Cromartie, 526 U.S. 541, 552
(1999); Wishkin v. Potter, 476 F.3d 180, 184 (3d Cir.
2007).
A factual dispute is material when it “might affect
the outcome of the suit under the governing law,” and
genuine when “the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.”
Id. at 248. The non-moving party “need not match,
item for item, each piece of evidence proffered by the
movant,” but must present more than a “mere
scintilla” of evidence on which a jury could reasonably
find for the non-moving party. Boyle v. Cty. of
Allegheny, 139 F.3d 386, 393 (3d Cir. 1998) (quoting
Anderson, 477 U.S. at 252).
IV. THE FALSE CLAIMS ACT
Under the FCA, private individuals can bring qui
tam actions on behalf of the government in exchange
for their right to retain some portion of any resulting

App-51
damages award. United States ex rel. Wilkins v.
United Health Care Group, Inc., 659 F.3d 295, 298 &
n.1 (3d Cir. 2011) (citing 31 U.S.C. § 3729 et seq.). To
establish a prima facie violation of the FCA, a
plaintiff-relator must prove: (1) falsity; (2) causation;
(3) knowledge; and (4) materiality. United States ex
rel. Petratos v. Genentech Inc., 855 F.3d 481, 487 (3d
Cir. 2017); see also Wilkins, 659 F.3d at 305 (“A
plaintiff, in order to establish a prima facie FCA
violation under section 3729(a)(1), must prove that
‘(1) the defendant presented or caused to be presented
to an agent of the United States a claim for payment;
(2) the claim was false or fraudulent; and (3) the
defendant knew the claim was false or fraudulent.’”)
(quoting United States ex rel. Schmidt v. Zimmer, Inc.,
386 F.3d 235, 242 (3d Cir. 2004)).
Liability may attach under the FCA on two
different theories: the presentment of factually false
claims and the presentment of legally false claims.
Wilkins, 659 F.3d at 305 (citing United States ex rel.
Conner v. Salina Reg’l Health Ctr., Inc., 543 F.3d 1211,
1217 (10th Cir. 2008)). “A claim is factually false when
the claimant misrepresents what goods or services
that it provided to the Government and a claim is
legally false when the claimant knowingly falsely
certifies that it has complied with a statute or
regulation the compliance with which is a condition for
Government payment.” Wilkins, 659 F.3d at 305.
Legally false claims may be either express, where the
claimant falsely certifies that it is in compliance with
regulations, or implied, where the claimant “seeks and
makes a claim for payment from the Government
without disclosing that it violated regulations that
affected its eligibility for payment.” Id. Under the so-

App-52
called “implied false certification theory,” which
Plaintiff-Relators invoke here, a plaintiff must
demonstrate that the defendant submited a claim that
includes “specific representations about goods or
services provided” which are rendered “misleading
half-truths” through “the defendant’s failure to
disclose noncompliance with material statutory,
regulatory, or contractual requirements.” Universal
Health Services v. United States ex rel. Escobar, 136 S.
Ct. 1989, 2001 (2016).
V. DEFENDANT’S MOTION TO DISMISS
Defendant first argues that the Amended
Complaint should be dismissed because PlaintiffRelators failed to comply with the statutory
requirements of 31 U.S.C. § 3730(b)(2). [See generally
Docket Item 127.] Among other requirements, Section
3730(b)(2) requires a relator to submit to the
Government a “written disclosure of substantially all
material evidence and information the person
possesses.” Such information allows the Government
to decide whether it will intervene in an action, decline
to intervene but permit the relator to proceed, or move
to dismiss the complaint. See 31 U.S.C.
§§ 3730(b)(2),(c)(2)(A).
According to Defendant, Plaintiff-Relators
deliberately withheld material information in its
“Written Disclosure of Substantially all Material
Evidence and Information with Respect to Alleged
False Claims” (the “Written Disclosure Statement”),
which was served to the Government around the time
the Complaint was filed in April 2008. [Docket Item
127 at 5-6.] Specifically, Defendant maintains that
Druding’s own deposition testimony revealed that

App-53
“Druding was the person who directed the conduct
falsely attributed to Care Alternatives in the
Complaint and that she was the subject of an internal
compliance investigation where she admitted to this
activity before immediately resigning.” [Id. at 5.]
According to Defendant, Druding testified at her
deposition that she falsified medical records in
connection with services provided to one patient, A.P.,
and this information was not included in the Written
Disclosure Statement to the Government. [Id. at 7.] By
“deliberately
omitting”
and
“improperly
with[holding]” this “material” information from the
Written Disclosure Statement, Defendant argues,
Plaintiff-Relators failed to comply with their pre-suit
disclosure requirements under 31 U.S.C. § 3730(b)(2).
[Id. at 6.] In support of its motion to dismiss,
Defendant primarily relies on a novel interpretation of
the recently-decided Supreme Court case, State Farm
Fire & Cas. Co. v. United States ex rel. Rigsby, 137 S.
Ct. 436 (2016), as discussed below.
In
response,
Plaintiff-Relators
argue:
(1) Defendant lacks “statutory” standing to seek
dismissal for a purported violation of 31 U.S.C.
§ 3730(b)(2) because any injury from a violation of the
statute would flow to the Government; (2) the Written
Disclosure Statement was not deficient because
Plaintiff-Relators gave the Government “substantially
all material evidence and information” that they had,
which was sufficient for the Government to decide
whether or not to intervene; and (3) even if the
Written Disclosure Statement was deficient, dismissal
is not an appropriate remedy. [Docket Item 143.]

App-54
In Rigsby, the Supreme Court held that a district
court may (but is not required to) dismiss a qui tam
complaint for failure to comply with 31 U.S.C.
§ 3730(b)(2)’s requirement that an FCA complaint
must be filed under seal. Rigsby, 137 S. Ct. at 444 (“In
general, the question whether dismissal is appropriate
should be left to the sound discretion of the district
court.”) Notably, the Supreme Court did not discuss
the Section 3730(b)(2) requirement that a relator
provide the government with “substantially all
material evidence and information the person
possesses.” The Rigsby Court further observed, but did
not hold, that the factors outlined in United States ex
rel. Lujan v. Hughes Aircraft Co., 67 F.3d 242 (1995),
“appear to be appropriate” for evaluating the
consequences of a relator’s violation of the § 3730(b)(2)
deficiency at issue in that case. Rigsby, 137 S. Ct. at
444.
The Court assumes for purposes of deciding this
motion to dismiss that Lujan articulated the proper
test for dismissal due to a deficient Section 3730(b)(2)
written disclosure statement. 9 Those factors are:
(1) the actual harm to the Government; (2) the
severity of the violations; and (3) evidence of bad faith.
Lujan, 67 F.3d at 245-47. None of these three factors
weigh in Defendant’s favor.
First, Defendant has failed to show that the
Government was actually harmed by the supposedly
9 Plaintiff-Relators argue, unpersuasively, that the Court
should look to the six-factor test outlined in Poulis v. State Farm
Fire & Cas. Co., 747 F.2d 863, 867-68 (3d Cir. 1984), rather than
the three-factor test outlined in Lujan. [See Docket Item 143 at
22-27.]

App-55
deficient Written Disclosure Statement, and “[t]he
mere possibility that the Government might have
been harmed by disclosure is not alone enough reason
to justify dismissal of the entire action.” Lujan, 67
F.3d at 245 (emphasis in original). This is especially
so where, as here, the Government actively
investigated the alleged misconduct for seven years,
amassed tens of thousands of records, and ultimately
declined to intervene.
Second, to the extent the Written Disclosure
Statement was deficient, Plaintiff-Relators’ alleged
violation (i.e., failure to disclose that Druding had,
herself, apparently falsified the records of one patient,
A.P.) was not necessarily “severe” in the context of a
FCA action where Plaintiff-Relators had also
identified 14 other patients in the Amended
Complaint who allegedly received inappropriate
hospice care.
Third, despite Defendant’s hyperbolic rhetoric,
there is no evidence that any omissions in the Written
Disclosure Statement were the result of deliberate bad
faith or willfulness on Plaintiff-Relators’ part.
It also appears there have been no cases in which
a defendant won dismissal of an FCA complaint where
the purported 31 U.S.C. § 3730(b)(2) violation is a
deficient Written Disclosure Statement presented to
the Government. According to Plaintiff-Relators,
“research reveals no cases in which a defendant has
successfully sought dismissal for a violation of
§ 3730(b)(2)’s disclosure requirement.” [Docket Item
143 at 16-17] (emphasis in original). The Court’s own
research efforts have produced similar results.

App-56
For these reasons, the motion to dismiss will be
denied.
VI. DEFENDANT’S MOTION FOR SUMMARY
JUDGMENT
In its motion for summary judgment, Defendant
argues that: (1) Plaintiff-Relators’ allegations of
falsity have insufficient evidentiary support; (2) there
is insufficient evidence that Defendants submitted
legally false claims; (3) Plaintiff-Relators have not
satisfied the element of “materiality;” and
(4) Plaintiff-Relators have not adduced any evidence
of scienter under the FCA. Because the Court finds
that summary judgment is warranted on the first
basis for the reasons described below, the Court need
not address Defendant’s other arguments.
1.

Plaintiff-Relators Must Put Forth
Evidence of “Objective Falsity”

As an initial matter, the Court finds persuasive
the district courts’ analyses in United States v.
AsercaCare, Inc. (“AseraCare I”), 153 F. Supp. 3d 1372
(N.D. Ala. 2016), United States v. AsercaCare, Inc.
(“AseraCare II”), 176 F. Supp. 3d 1282 (N.D. Ala.
2016), and United States ex rel. Wall v. Vista Hospice
Care, Inc. (“Vista Hospice”), 2016 WL 3449833 (N.D.
Tex.), wherein the trial courts held that, to survive a
motion for summary judgment, evidence of “an
objective falsehood” is required. See also United States
ex rel. Drakeford v. Tuomey, 792 F.3d 364, 383 (4th
Cir. 2015) (“[F]or a claim to be considered false under
the FCA, the statement or conduct alleged must
represent an objective falsehood.”) (internal citation
omitted); United States ex rel. Yannacopoulos v.
General Dynamics, 652 F.3d 818, 836 (7th Cir. 2011)

App-57
(“A statement may be deemed ‘false’ for purposes of
the False Claims Act only if the statement represents
an ‘objective falsehood.’”) (internal citation omitted);
United States ex rel. Morton v. A Plus Benefits, Inc.,
139 F. App’x 980, 982 (10th Cir. 2005) (“Falsity under
the FCA does not mean ‘scientifically untrue’; it means
‘a lie.’ At a minimum the FCA requires proof of an
objective falsehood.”); United States ex rel. Riley v. St.
Luke’s Episcopal Hosp, 355 F.3d 370, 376 (5th Cir.
2004) (“The district court concluded, however, that
expressions of opinion or scientific judgments about
which reasonable minds may differ cannot be ‘false.’
We agree in principle with the district court and
accept that the FCA requires a statement known to be
false, which means a lie is actionable but not an
error.”).
In AseraCare, the United States intervened in a
qui tam action alleging that the medical records of 123
patients at issue in the case did not contain “clinical
information and other documentation that support
[this] medical prognosis,” and thus, the defendant
hospice provider’s reimbursement claims for those
patients were “false.” AseraCare II, 176 F. Supp. 3d at
1283. Notably, the government did “not challenge that
each claim for each patient at issue had an
accompanying [certification of terminal illness] with
the valid signature of the certifying physician. Nor
[did] the Government point the court to any evidence
that any of the documents in the patients’ medical
records were false; that any information on which the
certifying physician relied was incorrect or false; or
that the clinicians withheld information from the
certifying physicians.” Id. at 1285. Instead, the only
evidence the government offered to prove falsity of the

App-58
claims came from the medical records of the patients
at issue in the case and through the “testimony of [an
expert] who offered his opinion, based on his
clinical judgment after a review of those medical
records, about the hospice eligibility of those patients.”
Id. at 1285-86 (emphasis in original).
After hearing evidence at a jury trial and then
granting a new trial based on improper instructions
the court gave to the jury regarding “false claims,” see
AseraCare I, 153 F. Supp. 3d at 1382-85, the Northern
District of Alabama held that the government’s theory
failed as a matter of law because a “mere difference of
opinion between physicians, without more, is not
enough to show falsity.” AseraCare II, 176 F. Supp. 3d
at 1283 (emphasis in original) (citing United States ex
rel. Phalp v. Lincare Holdings, Inc., 116 F. Supp. 3d
1326, 1360 (S.D. Fla. 2015)) (“Expressions of opinion,
scientific judgments, or statements as to conclusions
about which reasonable minds may differ cannot be
false.”). “Further, practices that may be improper,
standing alone, are insufficient to show falsity without
proof that specific claims were in fact false when
submitted to Medicare.” AseraCare II, 176 F. Supp. 3d
at 1283-84 (internal citation and quotations omitted).
In other words, the court explained, “[w]hen hospice
certifying physicians and medical experts look at the
very same medical records and disagree about
whether the medical records support hospice
eligibility, the opinion of one medical expert alone
cannot prove falsity without further evidence of an
objective falsehood.” Id. at 1283 (emphasis in original).

App-59
The court then granted summary judgment in favor of
the defendant hospice provider. Id. at 1286. 10
Similarly, in Vista Hospice, the Northern District
of Texas granted summary judgment in favor of a
defendant hospice provider as to false claims
allegations alleged by a qui tam relator who sought to
prove that the hospice provider had submitted false
reimbursement claims for inappropriate patients.
There, the evidence consisted of two expert reports, as
well as documents and testimony alleged to establish
“a culture of admitting and maintaining patients who
were ineligible for hospice,” including deposition
testimony of the relator and other employees who
“describe[d] pressure allegedly imposed on them and
others to falsify information in patient charts, which
allegedly resulted in such information being falsified,
and physicians certifying patients without reviewing
patient files.” Vista Hospice, 2016 WL 3449833, at *5;
see also id. at *5-11 (summarizing the evidence and
expert reports in detail).
First, the court explained that, “[b]ecause a
physician must use his or her clinical judgment to
determine hospice eligibility, an FCA claim about the
exercise of that judgment must be predicated on the
presence of an objectively verifiable fact at odds with
the exercise of that judgment, not a matter of
questioning subjective clinical analysis.” Id. at *17
(citing Morton, 139 F. App’x at 982-83) (“Expressions
of opinion, scientific judgments, or statements as to
conclusions about which reasonable minds may differ
10 The Court notes that AceraCare is currently pending on
appeal. See USA v. AseraCare, Inc., App. No. 16-13004 (11th Cir.,
filed on May 26, 2016).

App-60
cannot be false.”). The court further observed, “[a]
testifying physician’s disagreement with a certifying
physician’s prediction of life expectancy is not enough
to show falsity.” Vista Hospice, 2016 WL 3449833, at
*17 (citing AseraCare II and United States ex rel.
Fowler v. Evercare Hospice, Inc., 2015 WL 5568614, at
*9 (D. Colo. Sept. 21, 2015)). Accordingly, the court
held that an expert’s opinion that “certain of
Defendants’ patients were ineligible for hospice is
insufficient to create a fact issue as to whether
physician certifications and resulting claims were
false.” Vista Hospice, 2016 WL 3449833, at *18.
Next, the court considered relator’s proffered
evidence regarding the defendant hospice provider’s
corporate culture and allegations of altered medical
documents. As the court observed, the relator
produced “some evidence of the Defendants’ pressure
on their employees to admit large numbers of hospice
patients, and that a few employees falsified data on a
few specified patient charts. . . ,” but failed to
adequately “tie[] that evidence to the patients whose
charts [the expert] evaluated, nor to the submission of
a single false claim.” Id. Without evidence of any such
connection, the court found “there is no evidence of the
falsity required to establish liability.” Id. at 19.
Finally, the court determined that, “[n]o reliable
evidence is presented by Relator that any patient was
not terminally ill.” Id. Although the relator and other
non-physician employees “claim that they were
involved in or observed the certification of patients
who were medically ineligible, . . . eligibility depends
on physician judgment, and thus, their allegations
about patient health cannot support a conclusion that

App-61
any patient for whom a claim was submitted had a
medical prognosis of more than six months.” Id.
(emphasis in original) (citing United States ex rel.
Geschrey v. Generations Healthcare, LLC, 922 F.
Supp. 2d 695, 703) (“[T]hat Relator Janus, a social
worker, and a nurse agreed that the patient was not
appropriate for hospice because she could walk, eat,
and talk does not suffice to allege that the doctor’s
certification that A.W. was appropriate for hospice
was fraudulent; it merely alleges that Relator Janus
and others disagreed with the doctor’s assessment.
Relators have not alleged facts demonstrating that the
certifying physician did not or could not have believed,
based on his or other clinical judgment, that the
patient was eligible for hospice care.”). The court then
granted summary judgment in favor of the defendant
hospice relator as to the false claims allegations. Vista
Hospice, 2016 WL 3449833, at *21.
Again, the Court finds the reasoning in AseraCare
and Vista Hospice persuasive. The logic of these cases
is also supported by the Third Circuit’s FCA caselaw.
See United States ex rel. Thomas v. Siemens AG, 593
F. App’x 139, 143 (3d Cir. 2014) (“A statement is ‘false’
when it is objectively untrue.”); United States ex rel.
Hill v. Univ. of Med. & Dentistry of N.J., 448 F. App’x
314, 316 (3d Cir. 2011) (“[E]xpressions of opinion,
scientific judgments or statements as to conclusions
which reasonable minds may differ cannot be false.”).
And Plaintiff-Relators cite to no binding authority
that directly contradicts the analysis in either
AseraCare and Vista Hospice. Accordingly, the Court
adopts the reasoning of the district courts in these two
well-reasoned and directly on-point cases with respect

App-62
to “objective falsity” for purposes of deciding
Defendant’s motion for summary judgment.
2.

Plaintiff-Relators
Have
Not
Adduced Sufficient Evidence of
Objective Falsity

As in AseraCare and Vista Hospice, PlaintiffRelators identified patients in the Amended
Complaint who were allegedly inappropriate for
hospice care. (See Am. Compl. at 25.) As in AseraCare
and Vista Hospice, Plaintiff-Relators conceded that
every patient identified in the Amended Complaint
was certified by appropriate physicians for the hospice
benefit, as required by 42 U.S.C. § 1395f(a)(7).
Druding, 164 F. Supp. 3d at 631. As in AseraCare and
Vista Hospice, Plaintiff-Relators have adduced no
evidence that any physician received a kickback to
certify any patient as hospice eligible, nor have
Plaintiff-Relators accused a single physician of
certifying any patient whom that physician believed
was not hospice eligible. As in AseraCare and Vista
Hospice, Plaintiff-Relators instead argue (primarily
through an expert witness) that Defendant submitted
false claims to the government simply because
Defendant is missing adequate medical record
documentation to support hospice certification. And as
in AseraCare and Vista Home, the Court now finds
that Plaintiff-Relators have not adduced evidence of
objective falsity from which a reasonable fact finder
could conclude that Defendant submitted any false
claims for MHB reimbursement as to any of the
identified hospice patients identified in the Amended
Complaint.

App-63
As detailed in Section II.D.1, supra, PlaintiffRelators’ deposition testimony mostly reveals that,
contrary to the allegations in the Amended Complaint,
the only person who put any direct pressure on nurses
or other Care Alternatives employees to admit
ineligible patients for hospice was Druding herself.
(See, e.g., Coleman Dep. at 156:14-158:3; 171:19173:23.) This is corroborated by Kelton’s August 2007
internal investigation, which revealed that nurses
reported feeling pressured by Druding, and only
Druding, to admit patients whom the nurses believed
were inappropriate for hospice (see Kelton Aff.), as
well as the deposition testimony of several Care
Alternatives Employees, including Coppola, Spoltore,
and Veltri.
Nor is there evidence of alteration or falsification
of any identified patient’s record. As noted above, the
Court previously dismissed without prejudice
Plaintiff-Relators’ allegations that Care Alternatives
“submitted false claims for reimbursement by
presenting to the Government claims based on altered
medical records.” Druding, 164 F. Supp. 3d at 632-33.
Plaintiff-Relators did not seek leave to amend these
allegations, instead choosing to “proceed in the matter
regarding inappropriate patient admissions and recertifications for hospice care.” [Docket Item 49 at 1.]
Nonetheless, Plaintiff-Relators still seek to advance
the theory that medical documents were altered or
falsified through their deposition testimony. But even
then, there is simply no evidence to support PlaintiffRealtors’ theory. Bain and O’Brien testified that they
never altered or falsified documents. Coleman
testified that she was pressured to alter or falsify
documents by Druding, but that she nonetheless

App-64
never altered or falsified any documents. And, most
importantly, Druding adamantly maintains that,
notwithstanding her contradictory remarks regarding
A.P., she never altered or falsified any medical
documents. In sum, no Plaintiff-Relator has identified
a single document that was actually altered or
falsified by any Care Alternatives employee.
The only remaining evidence of falsity that
Plaintiff-Relators have put forth is the expert report of
Dr. Jayes. But, as Third Circuit precedent makes
clear, the difference of opinion of an expert cannot be
false. Hill, 448 F. App’x at 316 (“[E]xpressions of
opinion, scientific judgments or statements as to
conclusions which reasonable minds may differ cannot
be false.”). Thus, while the respective expert witness
for Plaintiff-Relators (Dr. Jayes) and for Defendant
(Dr. Hughes) disagree as to whether they find a
reasonable basis for admitting several identified
patients into hospice, their diverging opinions do not
create a genuine issue of material fact about the falsity
of a physician’s determinations that the patient meets
hospice eligibility where, as here, there is no factual
evidence that Defendant’s certifying doctor was
making a knowingly false determination. This is
because the ultimate issue is not whether the
certification of hospice eligibility was correct or
incorrect, but rather whether it was knowingly false.
Moreover, even if Plaintiff-Relators were entitled to
rely exclusively on Dr. Jayes’ expert report to establish
falsity, which they are not, Dr. Jayes opined, in fact,
that 12 of the 15 patients identified in the Amended
Complaint were actually appropriate for hospice for at
least part of their stay (Jayes Report at Appendix A),
and testified that reasonable physicians could differ

App-65
with his assessment. (See Jayes Dep. [Docket Item
128-23] at 92:6-17; 94:1-5; 282:13-283:1; 283:12-19.)
Thus, Dr. Jayes’ expert report is plainly insufficient to
establish a genuine dispute of material fact as to
falsity.
In sum, Plaintiff-Relators have not adduced
sufficient evidence of falsity sufficient to raise a
genuine dispute of material fact. Accordingly,
summary judgment must be granted in favor of Care
Alternatives.
VII. CONCLUSION
In light of the foregoing, the Court will deny
Defendant’s motion to dismiss and grant Defendant’s
motion for summary judgment. An accompanying
Order will be entered.
September 26, 2018

s/ Jerome B. Simandle

Date

JEROME B. SIMANDLE
U.S. District Judge

App-66
Appendix D
RELEVANT STATUTORY AND REGULATORY
PROVISIONS
31 U.S.C. § 3729(a)(1)(A)-(B)
(1) In general.–Subject to paragraph (2), any person
who–
(A) knowingly presents, or causes to be
presented, a false or fraudulent claim for payment
or approval;
(B) knowingly makes, uses, or causes to be made
or used, a false record or statement material to a
false or fraudulent claim;
*

*

*

42 U.S.C. § 1395f(a)(7)(A) (2005)
(a) Requirement of requests and certifications
Except as provided in subsections (d) and (g) of this
section and in section 1395mm of this title, payment
for services furnished an individual may be made only
to providers of services which are eligible therefor
under section 1395cc of this title and only if—
*

*

*

(7) in the case of hospice care provided an
individual—
(A)(i)

in the first 90-day period and

(I) the individual’s attending physician
(as defined in section 1395x(dd)(3)(B) of
this title)(which for purposes of this
subparagraph does not include a nurse
practitioner), and

App-67
(II) the medical director (or physician
member of the interdisciplinary group
described in section 1395x(dd)(2)(B) of
this title) of the hospice program
providing (or arranging for) the care,
each certify in writing at the
beginning of the period, that the
individual is terminally ill (as
defined in section 1395x(dd)(3)(A) of
this title) based on the physician’s or
medical director’s clinical judgment
regarding the normal course of the
individual’s illness,
(ii) in a subsequent 90- or 60-day period, the
medical director or physician described in
clause (i)(II) recertifies at the beginning of the
period that the individual is terminally ill
based on such clinical judgment;
*

*

*

42 C.F.R. § 418.22(b) (2006)
*

*

*

(b) Content of certification. Certification will be based
on the physician’s or medical director’s clinical
judgment regarding the normal course of the
individual’s illness. The certification must conform to
the following requirements:
(1) The certification must specify that the
individual’s prognosis is for a life expectancy of 6
months or less if the terminal illness runs its
normal course.
(2) Clinical
documentation

information
that support

and
the

other
medical

App-68
prognosis must accompany the certification and
must be filed in the medical record with the
written certification as set forth in paragraph
(d)(2) of this section. Initially, the clinical
information may be provided verbally, and must
be documented in the medical record and included
as part of the hospice’s eligibility assessment.
(3) The physician must include a brief narrative
explanation of the clinical findings that supports
a life expectancy of 6 months or less as part of the
certification and recertification forms, or as an
addendum to the certification and recertification
forms.
(i) If the narrative is part of the certification
or recertification form, then the narrative
must be located immediately prior to the
physician’s signature.
(ii) If the narrative exists as an addendum to
the certification or recertification form, in
addition to the physician’s signature on the
certification or recertification form, the
physician must also sign immediately
following the narrative in the addendum.
(iii) The narrative shall include a statement
under the physician signature attesting that
by signing, the physician confirms that he/she
composed the narrative based on his/her
review of the patient’s medical record or, if
applicable, his or her examination of the
patient.
(iv) The narrative must reflect the patient’s
individual clinical circumstances and cannot

App-69
contain check boxes or standard language
used for all patients.
*

*

*

